  February 3, 2003




Financial Management

Financial Reporting of Deferred
Maintenance Information on Army
Weapons Systems for FY 2002
(D-2003-054)




       Office of the Inspector General
                    of the
           Department of Defense
                                     Constitution of
                                    the United States

     A Regular Statement and Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                                Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMCOM               Aviation and Missile Command
FASAB               Financial Accounting Standards Advisory Board
FORSCOM             Army Forces Command
TACOM               Tank-automotive and Armaments Command
SFFAS               Statement of Federal Financial Accounting Standards
          Office of the Inspector General of the Department of Defense
Report No. D-2003-054                                               February 3, 2003
 (Project No. D2001FJ-0156.002)

         Financial Reporting of Deferred Maintenance Information
                  on Army Weapons Systems for FY 2002
                                  Executive Summary
Who Should Read This Report and Why? DoD personnel responsible for compiling
and reporting deferred maintenance information and users of deferred maintenance
information should read this report about Army compliance with deferred maintenance
reporting requirements.

Background. The Federal Accounting Standards Advisory Board requires Federal
entities to provide supplemental information on deferred maintenance as part of the
entities’ financial statements. The Federal Accounting Standards Advisory Board defines
deferred maintenance as maintenance that was not performed when it should have been
or was scheduled to be and which, therefore, is put off or delayed to a future period. The
Army did not issue financial statements for the Army general fund in FY 2001, but issued
statements in FY 2002.

We primarily focused on the records used to compile deferred organic (in-house)
maintenance and did not include a review of possible deferred maintenance at contractor
facilities.

Results. During 2002, the Army did not consistently and accurately compile information
on deferred maintenance on its weapons systems. Army budget reports projected that
unfunded deferred maintenance on its weapons systems would grow from $311.8 million
in FY 2001 to $463.1 million in FY 2002. However, the budget reports could not be
reconciled to information from condition assessments of Army weapons systems.
Condition assessments for combat vehicles and Blackhawk helicopters indicated that the
Army budget reports understated deferred depot-level maintenance by $247.5 million for
combat vehicles and $118.8 million for Blackhawk helicopters. Additionally, the budget
reports did not include at least $234.5 million in deferred field-level maintenance on
combat vehicles. The Army budget reports also did not report on $105.9 million of
unexecutable deferred maintenance on Patriot missiles. Unless the Army develops better
procedures to compile deferred maintenance information, the Army was not be able to
provide a reliable estimate of deferred maintenance on its weapons systems as required in
supplementary information to the FY 2002 Army General Fund Financial Statements.

Management Comments. The Principal Deputy Assistant Secretary of the Army
(Financial Management and Comptroller) concurred with the finding and
recommendations; therefore, no additional comments are required. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                            i


Background                                                  1


Objectives                                                  1


Finding
     Compilation of Army Deferred Maintenance Information    3

Appendixes
     A. Scope and Methodology                               11
          Management Control Program Review                 11
          Prior Coverage                                    12
     B. Report Distribution                                 13

Management Comments
     Department of the Army                                 15
Background
    This audit was performed in support of the Chief Financial Officers Act of 1990
    (Public Law 101-576), as amended by the Government Management Reform Act
    of 1994 (Public Law 103-356), and the Federal Financial Management
    Improvement Act of 1996 (Public Law 104-208). This report is the second in a
    series resulting from our audit of the financial reporting of deferred maintenance
    on weapons systems. The first report discussed Air Force reporting. This report
    discusses Army efforts to compile and report deferred maintenance information.

    The Financial Accounting Standards Advisory Board (FASAB) defines generally
    accepted accounting principles for the Federal Government. FASAB defines
    maintenance as the act of keeping fixed assets in acceptable condition. This
    includes all activities needed to preserve the asset so that it continues to provide
    acceptable services and achieves expected life. However, maintenance excludes
    activities aimed at expanding the capacity of the asset or otherwise upgrading it to
    serve needs different from, or significantly greater than, those originally intended.

    Statement of Federal Financial Accounting Standards No. 6, “Accounting for
    Property, Plant, and Equipment,” June 1996, as amended by Statement of Federal
    Financial Accounting Standards No. 14, “Amendments to Deferred Maintenance
    Reporting,” April 1999, defines deferred maintenance as maintenance that was
    not performed when it should have been or was scheduled to be and which,
    therefore, is put off or delayed to a future period.

    In June 1996, FASAB required entities to disclose deferred maintenance in the
    financial statements. Deferred maintenance was required to be shown as a line
    item on the Statement of Net Cost with a footnote reference in lieu of a dollar
    amount. FASB concluded that deferred maintenance did not meet the definition
    of a liability because it could not be sufficiently measured. In April 1999,
    FASAB changed the requirements for financial statement reporting of deferred
    maintenance from a footnote disclosure to the Required Supplemental
    Information section. This was done to allow management maximum flexibility in
    reporting on deferred maintenance.

    FASAB standards observe that maintenance is often underfunded and the
    consequences of underfunding maintenance are often not immediately reported.
    The consequences include increased safety hazards, higher costs in the future, and
    inefficient operations. Therefore, reporting deferred maintenance estimates in the
    financial statements is intended to provide reliable information on the condition
    of weapons systems. It also shows managers and Congress the cost of correcting
    weapons systems deficiencies.

    Army maintenance is accomplished at two different activity levels, depot-level
    maintenance activities and field-level maintenance activities. Depot-level
    maintenance includes major repair, overhaul or complete rebuilding of weapons
    systems, end items, parts, assemblies, and subassemblies; manufacture of parts;
    technical assistance; and testing. Field-level maintenance includes maintenance
    activities at organizational levels below the depot-level.
                                          1
    The Army is required to report on unfunded maintenance for its weapons systems
    in Op-30 budget reports. These reports are also used to compile deferred
    maintenance amounts that are reported in required supplementary information to
    the Army general fund financial statements. For FY 2001, the Army reported
    $311.8 million of unfunded maintenance on its weapons systems in Op-30 budget
    reports, but the Army did not issue financial statements with deferred
    maintenance information due to the loss of documentation in the terrorist attack
    on the Pentagon.


Objectives
    The overall objective was to determine whether DoD consistently and accurately
    compiled deferred maintenance information on weapons systems for financial
    reporting purposes. This report focuses on the accuracy of Army deferred
    maintenance information. We also assessed compliance with applicable laws and
    regulations. See Appendix A for a discussion of scope and methodology.




                                        2
           Compilation of Army Deferred
           Maintenance Information
           During 2002, the Army did not consistently and accurately compile
           information on deferred maintenance on its weapons systems. Army
           budget reports projected that unfunded deferred maintenance on its
           weapons systems would grow from $311.8 million in FY 2001 to
           $463.1 million in FY 2002. However, the budget reports could not be
           reconciled to information from condition assessments of Army weapons
           systems. Condition assessments for combat vehicles and Blackhawk
           helicopters indicated that the Army budget reports understated deferred
           depot-level maintenance by $247.5 million for combat vehicles and
           $118.8 million for Blackhawk helicopters. Additionally, the budget
           reports did not include at least $234.5 million in deferred field-level
           maintenance on combat vehicles. The Army budget reports also did not
           report on $105.9 million of unexecutable deferred maintenance on Patriot
           missiles. These conditions occurred because the Army did not adapt its
           reporting process to comply with DoD financial accounting and reporting
           policies for deferred maintenance. Unless the Army develops better
           procedures to compile deferred maintenance information, the Army will
           not be able to provide a reliable estimate of deferred maintenance on its
           weapons systems as required in supplementary information to the Army
           General Fund Financial Statements.



Accounting and Reporting Guidance
    Reporting Deferred Maintenance. Statement of Federal Financial Accounting
    Standards No. 6, “Accounting for Property, Plant, and Equipment,” as amended
    April 1999, defines two acceptable methods of measuring deferred maintenance:
    the condition survey method and the life-cycle costing method. Condition
    assessment surveys are periodic inspections to determine the current condition of
    assets and estimates of the cost to correct deficiencies. The life-cycle costing
    method considers operating, maintenance, and other costs in addition to the
    acquisition cost of the assets.

    DoD Financial Management Regulation volume 4, “Accounting Policy and
    Procedures,” chapter 6, “Property Plant and Equipment,” August 2000,
    implements Federal Financial Accounting Standards and allows the Military
    Departments to account for deferred maintenance on its weapons systems using
    cost assessment surveys based on the condition of reportable assets, life cycle
    forecasts of cumulative deferred maintenance, or other methods so long as the
    accounting method is adequately described in the financial statements.

    DoD Financial Management Regulation volume 6B, “Form and Content of the
    DoD Audited Financial Statements,” November 2001, requires DoD Components
    to report material amounts of deferred maintenance on weapons systems property,


                                        3
    plant, and equipment in accordance with Statement of Federal Financial
    Accounting Standards (SFFAS) No. 6, “Accounting for Property, Plant, and
    Equipment” and the Statement of Recommended Accounting Standards No. 14,
    “Amendments to Deferred Maintenance Reporting,” April 1999.

    Chapter 12 of volume 6B requires the Military Departments to compile deferred
    maintenance information on weapons systems using the same methodology
    employed in budget exhibits on unfunded depot-level maintenance
    (Op-30 Reports). The Regulation also requires the Military Departments to report
    material amounts of deferred field-level maintenance. Additionally, the
    Regulation requires the Military Departments to include a narrative statement that
    discloses and describes the method used to determine the estimated amounts of
    deferred maintenance and information on asset condition.

    Budget Formulation. DoD Financial Management Regulation volume 2A,
    “Budget Formulation and Presentation,” June 2000, provides general guidance on
    the formulation and submission of the budget requests to the Office of the
    Secretary of Defense for the fall budget review and the presentation and
    justification of the budget requests to the Congress. The Future Years Defense
    Program is the program and financial plan for the Department of Defense as
    approved by the Secretary of Defense. The program arrays cost data and force
    structure over a 6-year period portraying these data by major force program for
    DoD internal review for both the Program Review and Budget Estimates
    Submission. The data are also provided to the Congress in conjunction with the
    President’s Budget. The regulation also requires the Military Departments to
    prepare Op-30 reports on depot maintenance requirements. It allows the Military
    Departments to provide additional exhibits to supplement required reports. The
    purpose of the back-up exhibits is to describe the programs and justify the
    estimates. The Military Departments are instructed to seek changes to the
    regulation if the data collection systems or management systems used by the
    Military Departments provide for cost accounts, program units, or workload
    indicators different from those specified in the regulation.


Reporting of Army Deferred Maintenance
    The Army needs to adapt its reporting process to implement DoD accounting and
    reporting policies regarding deferred maintenance on weapons systems.
    Specifically, for FY 2002, Army Op-30 budget reports projected that unfunded
    maintenance on its weapons systems will be about $463.1 million. However, the
    budget reports could not be reconciled to information from condition assessments
    of Army weapons systems and does not include at least $234.5 million in deferred
    field-level maintenance. The Army also did not compile information on the
    amount of unexecutable deferred maintenance scheduled to be completed in
    future years.




                                        4
Unfunded Deferred Maintenance
    Each year, Army managers complete cost assessments of depot-level maintenance
    requirements for Army weapons systems and related support equipment. The cost
    assessments are based on condition assessments and scheduled recapitalization of
    Army weapons systems. The cost assessments project depot-level workload over
    the 6-year future years defense program based on equipment that qualifies or is
    projected to qualify for depot-level maintenance in future years.

    The Army compiles information from those cost assessments to complete Op-30
    budget reports. The information is then used to estimate the amount of unfunded
    depot-level maintenance on its weapons systems for the budget year and the two
    preceding years. For FY 2002, the Army Op-30 reports projected that unfunded
    depot-level maintenance on its weapons systems would grow from $311.8 million
    to $463.1 million (see Table 1 below).

            Table 1. Funding of Army Depot-Level Maintenance
                             (FYs 2000-2002)

              Fiscal          Unfunded      Funded        Percentage
              Year                 Millions               Unfunded
               2000          $223.6         $ 857.5          20.7
               2001           311.8            908.8         25.5
               2002           463.1          1,064.7         30.3

    As illustrated in Table 2, Army broke out the $463 million in unfunded
    depot-level maintenance requirements by weapons systems in the
    FY 2002 Army Op-30 report.

           Table 2. Categories of Weapons Systems reported in the
                            Army Op-30 Report

                                Unfunded       Funded       Percentage
          Category                    Millions              Unfunded

         Combat Vehicles       $ 93.9           $ 215.5         30.4
         Aircraft               180.2             175.7         50.7
         Missiles                30.9             235.8         11.6
         Ordinance                4.9              20.2         19.5
         Other                  153.2             417.5         26.8
           Total               $463.1           $1064.7         30.3




                                        5
The FY 2002 amounts from the Op-30 reports could not be reconciled to
information from condition assessments of combat vehicles or Blackhawk
helicopters. This occurred because the Army did not include all requirements
from the condition assessments in the Op-30 reports. It only included the amount
the Army believed it could fund and execute given its existing depot capacity,
rather than actual requirements.

Combat Vehicles. Army Regulation 750-2, “Army Materiel Maintenance
Wholesale Operations,” October 27, 1989, requires the Tank-automotive and
Armaments Command (TACOM) to perform condition assessments of combat
vehicles reaching prescribed mileage intervals. Information from Army condition
assessments indicates that amounts reported on Op-30 reports as unfunded depot-
level maintenance are significantly understated for combat vehicles.

As of March 2002, the TACOM Combat Vehicle Evaluation Program reported
that it had a backlog of 1,393 combat vehicles that require depot overhaul with an
estimated overhaul cost of $418.2 million. The backlog occurred from FY 1994
through FY 2002 because the Army did not adequately fund depot maintenance
programs for 14 types of combat vehicles during those years. For FY 2002, the
Army planned to overhaul only 123 of the 1,393 vehicles at a cost of
$76.8 million.

The Army reported only $93.9 million in unfunded depot-level maintenance in
Op-30 reports for its combat vehicles in FY 2002 even though $341.4 million
($418.2 million less $76.8 million) of the backlog of vehicles that qualified for
depot-level overhaul was deferred. The Army did not report all of the deferred
maintenance because it believed it would not receive the large amount of funding
needed. The condition assessments showed that unfunded depot-level
maintenance was under-reported by $247.5 million ($341.4 million less
$93.9 million) for combat vehicles for FY 2002.

As a part of the FY 2002 budget process, Army managers reported that the lack of
funding for depot-level maintenance of its combat vehicles would degrade
readiness.

Blackhawk Helicopters. Army Regulation 750-2 also requires the Aviation and
Missile Command (AMCOM) to complete annual evaluations of the condition of
all aircraft. However, depot-level overhauls of helicopters were not scheduled
based on condition assessments of the helicopters. Instead overhauls were
deferred pending the implementation of the Army recapitalization program.

The Army defines recapitalization as the rebuilding and selected upgrade of
currently fielded systems to ensure operational readiness. Recapitalization
requires the Army to rebuild the systems to zero-time/zero mile engineering
standards. The goal of the recapitalization program is to reduce the average age
of 17 key Army weapons systems to 10 years. In FY 2001 testimony to Congress,
the Commander of the Army Materiel Command testified that the average age of



                                    6
Blackhawk helicopters was 17 years. In order to meets its objective of 10 years
average age, the Army should have been recapitalizing the Blackhawk helicopters
in prior years.

During FY 2001, the AMCOM Aviation Condition Evaluation Program identified
67 Blackhawk helicopters that qualified for depot-level overhaul. The
67 helicopters would have cost approximately $181.2 million to overhaul in
FY 2001. However, the Army initiated the overhaul of only 12 Blackhawk
helicopters during FY 2001 for approximately $32.5 million. For FY 2002, the
AMCOM budget information reported only $29.9 million in unfunded depot-level
maintenance for Blackhawk helicopters even though $148.7 million
($181.2 million less $32.5 million) of the depot-level maintenance was deferred
pending recapitalization of the Blackhawk helicopters. The condition
assessments showed that unfunded depot-level maintenance was under-reported
by $118.8 million ($148.7 million less $29.9 million) for the Blackhawk
helicopters.

Historical data from AMCOM engineers showed that approximately
107 Blackhawk helicopters (7 percent of the fleet of 1,531 helicopters) should
have been overhauled each year at approximately $2.7 million for each helicopter.
However, for the 4-year period from FYs 1998 through 2001 the Army
overhauled only 38 helicopters for $104.3 million. If the Army had overhauled
428 Blackhawk helicopters during the same time frame (4 years at 107 helicopters
per year), the Army would have spent approximately $1.2 billion on overhauls.
The low rate of overhaul saved the Army depot-level maintenance funds, but
caused the average age of the Army Blackhawk fleet to increase in age to
17 years. The low rate of overhaul in the past will also force the Army to defer
future overhauls that will not be executable until future years.

The AMCOM engineering estimate of the number of helicopters that required
overhaul per year (7 percent of the fleet per year) was slightly less than the rate of
overhaul performed on the Air Force version of the Blackhawk helicopters.
Specifically, the Air Force contracts with the Corpus Christi Army Depot to
overhaul approximately 10 percent of its fleet of Pavehawk helicopters per year.
The information from Air Force overhauls shows that the Army engineering
estimate of required overhauls is conservative.

As a part of the FY 2002 budget process, the Blackhawk weapons system
manager reported that the lack of depot-level funding would defer maintenance
that is required to correct critical defects. The lack of funding could cause a
hazardous or unsafe condition for flight operations and degrade performance of
the aircraft. Mission and unit readiness rates will also decline.

To adequately quantify deferred maintenance, the Army needed to adapt its
budget process to identify these actual amounts of unfunded deferred depot-level
maintenance.

Deferred Field-Level Maintenance. The Army deferred performing material
amounts of field-level maintenance because of inadequate funding for labor.
However, the Army did not report any of the deferred field-level maintenance in
Op-30 budget reports.


                                      7
For FY 2001, the Army did not have enough mechanics to perform at least
$234.5 million of required field-level maintenance on combat vehicles and related
support equipment. Specifically, the Army Forces Command (FORSCOM),
which includes only active Army units in the Continental United States, did not
fund an estimated $234.5 million in field-level labor requirements and an
undeterminable amount of deferred field-level spare and repair part requirements.
The unfunded FY 2001 field-level labor requirements resulted in deferred
maintenance for FY 2002 that needs to be reported.

Army Regulation 570-4, “Manpower Management,” May 15, 2000, prescribes
planning, budgeting, programming, and execution policy for Army manpower.
The Regulation provides standards for how much time mechanics should perform
maintenance. The Army has more field-level maintenance requirements than
Army mechanics can perform under the standards. Specifically, the Army
maintains a database of the expected number of hours needed to perform the
annual maintenance on its equipment. Based on its analysis of the data base,
FORSCOM determined that the Army did not fund $294.5 million of field-level
maintenance.

In FY 2001, Army field commanders used approximately $60 million from
operating funds to hire contractors to complete field-level maintenance in order to
make up for the shortfall in mechanics. FORSCOM established Vehicle
Readiness and Enhancement Programs and Contract Augmentation Teams to
complete required maintenance on combat vehicles. The $60 million of work
reduced the shortage of funding for mechanics from $294.5 to $234.5 million.
However, results from recent FORSCOM inspections found readiness problems
that occurred due to the mechanic shortages. Specifically, during FY 2001, the
FORSCOM-IG performed random inspections of units reporting readiness rates
above 90 percent and found that actual readiness rates were 30 to 50 percent less
than reported.

Additionally, when mechanics did not complete maintenance, spare and repair
parts were not ordered. For example, FORSCOM established maintenance
projects on tracked vehicles that were being transferred to other Army units in
order to repair the vehicles to Army maintenance standards. FORSCOM records
showed that the Army deferred ordering $3.43 in spare and repair parts for each
dollar of deferred labor on the tracked vehicles. In another example, field-level
programs for rebuilding tactical trucks showed that the Army deferred ordering
$1.34 in spare and repair parts for each dollar of deferred labor.

DoD regulations require the Army to report on material amounts of deferred
field-level maintenance. Accordingly, we believe the Army needs to issue
procedures to identify and submit unfunded labor requirements on an Army-wide
basis and identify deferred requirements for field-level spare and repair parts.




                                     8
Unexecutable Deferred Maintenance
    DoD Directive 4151.18, “Maintenance of Military Materiel,” August 12, 1992,
    defines deferred maintenance requirements as either unfunded requirements or
    funded requirements that are unexecutable due to the operational commitment of
    assets, lack of organic (in-house) or contractor facilities or parts, or other
    constraints.

    When backlogs of weapons systems that are qualified for overhaul are larger than
    annual depot capacity to repair the systems, the backlog must be deferred to
    future years. During FY 2002, the Army did not compile information on material
    amounts of unexecutable deferred maintenance information.

    Program Budget Decision 021R, “Active Army Operations,” December 10, 2001,
    states that the FY 2002 Army budget requirements were not in compliance with
    the DoD effort to reverse the decline of the condition of weapons systems. The
    budget decision states that Army depot maintenance experts acknowledged that
    maintenance backlogs cannot be fully eliminated because sharp increases in
    depot-level maintenance workloads cannot be executed due to commitment of
    assets, lack of organic or contractor facilities, parts shortages and other
    constraints. For example, the Army requested $126.1 million to fund the overhaul
    of 674 Patriot missiles during FY 2002. The program budget decision
    disapproved the Army request because the Army could only execute the overhaul
    of 108 missiles during FY 2002 due to the lack depot-level maintenance capacity.
    This resulted in $105.9 million in unexecutable maintenance for FY 2002.

    Additionally, as of April 2002, AMCOM faced a shortage of $1.4 billion for spare
    and repair parts that are needed to support depot-level maintenance programs.
    AMCOM officials told us that the shortage of spare and repair parts would further
    delay depot-level programs for helicopters.

    The amount of unexecutable deferred maintenance on Army weapons systems
    will grow in the future. As of April 2002, the Army identified $1.9 billion in
    unexecutable maintenance requirements for FYs 2004 through 2009.

    The Army needs to quantify the FY 2002 amount of unexecutable deferred
    maintenance prior to the compilation of the FY 2003 Army General Fund
    Financial Statements.


Conclusion
    DoD financial management regulations provide the Army flexibility in accounting
    for and reporting on deferred maintenance. The Army budget process should be
    adapted to produce sufficient information to estimate the amounts of deferred
    maintenance that has accumulated on its weapons systems. Specifically, the
    Army should use condition assessments and historical maintenance information to
    estimate the amount of deferred maintenance on Army weapons systems.



                                        9
Recommendations and Management Comments
    We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller):

       1. Issue policy to report all deferred maintenance identified in condition
          assessment reports, including maintenance that will not be funded
          because the maintenance cannot be executed due to constraints in
          depot-level maintenance capacity.

       2. Report deferred field-level maintenance amounts that are material as
          well as deferred maintenance identified as unexecutable until future
          years.

    Management Comments. The Principal Deputy Assistant Secretary of the Army
    (Financial Management and Comptroller) concurred. He stated that the Army
    would implement policies and procedures to ensure that all material deferred
    maintenance is reported on in required supplementary information to the FY 2003
    Army general fund financial statements. See further comments on the
    Management Control Program in Appendix A.




                                      10
Appendix A. Scope and Methodology
    We performed our audit at the Forces Command (FORSCOM) and four of its
    garrisons. We also performed our audit at the Tank-automotive and Armaments
    Command (TACOM) and the Aviation Missile Command (AMCOM). We
    determined whether the Department of the Army consistently and accurately
    compiled cumulative deferred maintenance requirements for its weapons systems.
    We also reviewed budgetary and financial information compiled by the Army to
    determine whether the information could be used to estimate deferred
    maintenance on Army weapons systems. We reviewed FORSCOM studies on
    maintenance and visited field-level maintenance activities to observe maintenance
    operations and the condition of equipment. We also analyzed data on the Army
    recapitalization program, Army depot-level overhaul programs, and field-level
    maintenance programs. We primarily focused on the records used to compile
    deferred organic maintenance and did not include a review of possible deferred
    maintenance at contractor facilities.

    We performed this audit from July 2001 to May 2002 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. The information we analyzed was generated
    by Army subordinate commands during the budgetary process at the summary
    level. The information was not generated by a standard system. As a result, we
    did not evaluate the adequacy of the computer systems’ general and application
    controls. We also could not provide precise estimates of the amount of deferred
    maintenance on Army weapons systems.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the financial management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the compilation and reporting of deferred
    maintenance information on Army weapons systems. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material weakness for the
    Army as defined by DoD Instruction 5010.40. Management controls were not
    adequate to ensure that deferred maintenance information on Army weapons
                                        11
    systems was consistently and accurately compiled. In addition, the Army had not
    adapted budgetary information to comply with DoD accounting and reporting
    policy. Recommendations 1 and 2, if implemented, will allow the Army to
    compile and report reasonable estimates of the amount of deferred maintenance
    that has accumulated on Army weapons systems. A copy of the report will be
    provided to the senior official responsible for management controls for the Army.

    Adequacy of Management’s Self-Evaluation. The Army did not identify
    deferred maintenance as an assessable unit and, therefore, did not identify or
    report the material management control weakness identified by the audit.


Management Comments on the Management Control Program
 and Audit Response
    Management Comments. The Principal Deputy Assistant Secretary of the Army
    (Financial Management and Comptroller) non-concurred with our conclusion. He
    believed the material weakness occurred because the DoD reporting process did
    not require the Army to report all deferred maintenance information.

    Audit Response. We disagree with the Army’s assessment. DoD policy allows
    the Army to be flexible in reporting deferred maintenance information. In
    addition, DoD policy was changed for FY 2002 to require the reporting of all
    material deferred maintenance. As a result, the Army should report a material
    management control weakness regarding deferred maintenance reporting.


Prior Coverage
    This is one in a series of reports on deferred maintenance. We issued Report
    No. D-2003-030, “Financial Reporting of Deferred Maintenance on Air Force
    Weapons Systems for FY 2002,” on November 27, 2002. We also are in the
    process of issuing a report on Navy deferred maintenance. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports.




                                        12
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff G-4
Commander, Army Forces Command
Commander, Army Materiel Command
  Commander, Aviation and Missile Command
  Commander, Communications-Electronics Command
  Commander, Tank-automotive and Armaments Command
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
 National Security and International Affairs Division
   Technical Information Center




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          14
Department of Army Comments




                   15
16
17
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Curt W. Malthouse
John R. Williams
James R. Jones
Catherine Bird
